No. 20-366
IN THE

Supreme Court of the United States
DONALD J. TRUMP,
President of the United States, et al.,
Appellants,
v.
NEW YORK, et al.,
Appellees.
CERTIFICATE OF WORD COUNT
Oren L. Zeve, a member of the bar of this Court, certifies as required by Supreme
Court Rule 33.1(h) that the accompanying Motion to Affirm for Government
Appellees contains 8,990 words excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
Executed on October 7, 2020
. /s/ Oren L. Zeve
.
Oren L. Zeve
Managing Assistant Solicitor General
New York State Office of the Attorney General
28 Liberty Street
New York, NY 10005

